NO. 20-____

In the
Supreme Court of the United States
ANNE RICHARDS ET AL.,

Petitioners,
v.
SAM OLENS ET AL.,

Respondents.
__________________________

On Petition for a Writ of Certiorari to the
Supreme Court of Georgia
PETITION FOR A WRIT OF CERTIORARI

STEPHEN F. HUMPHREYS

COUNSEL OF RECORD

STEPHEN F. HUMPHREYS, P.C.
P.O. BOX 192

ATHENS, GA 30603
(706) 207-6982
ATHENSLAW@GMAIL.COM

COUNSEL FOR PETITIONERS

DECEMBER 13, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
QUESTION PRESENTED
In a related RICO action, former Georgia Attorney
General Sam Olens made knowing misrepresentations
about University System of Georgia (USG) finances
in order to block a hearing required by USG policy
and obstruct a criminal investigation of the USG—
later discovered to be engaged in a multi-billion-dollar
fraud in federal funding scheme. Post-obstruction, the
USG Board of Regents appointed Olens—as the sole
candidate considered, in violation of Board of Regents
policies—to a $500,000 a year position as president
of Kennesaw State University (KSU)—after the USG
removed the sitting president, with Olens’ knowledge,
through extortionate threats. When Petitioners sued to
enjoin the Olens appointment as part of an ongoing
RICO scheme, the Attorney General appointed by the
Governor to replace Olens never filed a responsive
pleading to the instant KSU action. In the face of more
than a year of Petitioners’ uncontested pleadings, the
trial court ruled against Petitioners in a one-sentence
order with no explanation. The Georgia Court of
Appeals refused to hear Petitioners’ appeal. Conflicted
justices on the Georgia Supreme Court refused to
recuse and also refused to review the denial of constitutional due process in violation of their oaths of office.
1. Whether the total breakdown of Georgia’s
justice system—in which the state never responded
to documented allegations of fraud, obstruction,
bribery, and extortion, and the courts denied review
of uncontested corruption by political allies—is such
a flagrant violation of constitutional due process and
the rule of law that this Court must order a summary
reversal to require actual adjudication of the cause
below under the governing laws.

ii
PARTIES TO THE PROCEEDINGS
Petitioners and Plaintiffs-Appellants Below
●

Anne Richards

●

Amanda Harrell

●

Dr. Benjamin Williams

Respondents and Defendants-Appellees Below
●

Sam Olens, the Office of Georgia Attorney
General (Department of Law)

●

Governor Nathan Deal,1

●

Hank Huckaby

●

Steve Wrigley

●

Houston Davis

●

John Fuchko

●

The Board of Regents of the University System
of Georgia

1 Since the case was dismissed, Brian Kemp took office as Governor
of Georgia.

iii
LIST OF PROCEEDINGS
Supreme Court of Georgia
Case No. S20c0106
Anne Richards Et Al. v. Sam Olens Et Al.
Date of Petition for Certiorari Denial: March 26, 2020
Motion to Vacate Denial Date: July 15, 2020
Reconsideration Denial Date: July 15, 2020
_________________
Court of Appeals of the State of Georgia
Case No. A19A2010
Anne Richards Et Al. v. Sam Olens Et Al.
Date of Final Order: July 26, 2019
_________________
Superior Court of Fulton County Georgia
Case No. 2016-cv-282020
Leonard Witt, Susan Raines, Anne Richards, Scott
Ritchey, Nicki Ayon, Virginia Bellew, Erin Ann Exum,
Lane Hunter, Amanda Harrell, Brian Lawler, Jessica
Boudreaux, Tiffany Griff’m, Valerie Dribble Joshua
Goodwin, Sarah Larkin, Elizabeth Gordon, Dr. Ben
Williams, and the Cobb Chapter Leadership Conference of the Southern Christian Leadership Conference,
Plaintiffs, v. Sam Olens, the Attorney General of
Georgia, John Does, Hank Huckaby Steve Wrigley,
Houston Davis, John Fuchko, the Board of Regents
of the University System of Georgia, and Governor
Nathan Deal, Defendants
Date of Final Order: November 14, 2016

iv
RELATED CASE
TRICOLI V. WATTS ET AL.
Supreme Court of Georgia
Case No. S16c1469
Anthony S. Tricoli v. Rob Watts Et Al.
Date of Final Order: November 7, 2016
_________________
Court of Appeals of the State of Georgia
Case No. A15a2256
Tricoli v. Watts Et Al.
Date of Final Opinion: March 30, 2016

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDINGS ......................... ii
LIST OF PROCEEDINGS ......................................... iii
TABLE OF AUTHORITIES .................................... viii
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL PROVISIONS........................... 2
STATEMENT OF THE CASE .................................... 2
REASONS FOR GRANTING THE PETITION ....... 16
CONCLUSION.......................................................... 19

vi
TABLE OF CONTENTS – Continued
Page
APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
IN RICHARDS ET AL. V. OLENS ET AL.
Order of the Supreme Court of Georgia Denying
Motion to Vacate (July 15, 2020) ....................... 1a
Order of the Supreme Court of Georgia Denying
Motion for Reconsideration (July 15, 2020) ...... 2a
Order of the Supreme Court of Georgia Denying
Petition for Certiorari (March 26, 2020) ........... 3a
Order of the Court of Appeals for the
State of Georgia (July 26, 2019) ........................ 4a
Order of the Court of Appeals for the
State of Georgia (July 26, 2019) ........................ 5a
Order of the Court of Appeals for the
State of Georgia (June 12, 2019)........................ 7a
Order of the Court of Appeals Granting
Appellant’s Motion for an Extension of Time
(May 17, 2019) .................................................... 8a
Order of the Court of Appeals for the
State of Georgia (February 27, 2018) ................ 9a
Final Order of the Superior Court of Fulton
County Georgia (November 14, 2016) ............. 10a
Order Denying Motion to Strike and Set Aside
Judgment and Renewed Rule 60 Motion to Set
Aside Judgment for Fraud and Absence of
Jurisdiction (January 12, 2018) ....................... 16a

vii
TABLE OF CONTENTS – Continued
Page
OPINIONS AND ORDERS IN
RELATED CASE: TRICOLI V. WATTS ET AL.
Order of the Supreme Court of Georgia
(November 7, 2016) .......................................... 18a
Opinion of the Court of Appeals for the
State of Georgia (March 30, 2016) ................... 19a
STATUTORY PROVISIONS
Relevant Statutory Provisions Involved ................ 30a
OTHER DOCUMENTS
Plaintiff’s Proposed Order for the Superior Court of
Fulton County Georgia ..................................... 42a
Letter from Stephen Humphreys to Georgia
Governor Brian Kemp (November 30, 2020) ... 49a
Memorandum to the Georgia Bar Regarding First
Amendment Retaliation (August 1, 2018) ....... 56a

viii
TABLE OF AUTHORITIES
Page
TABLE OF AUTH ORITIES

CASES

Bouie v. City of Columbia,
378 U.S. 347 (1964) ............................................ 18

Caldwell v. State,
253 Ga. 400 (1984)............................................... 3

Coweta County v. Simmons,
269 Ga. 694 (1998)......................................... 7, 18

Johnson v. Carrollton,
249 Ga. 173 (1982) ...................................... 7, 9, 18

Keogh v. Bryson,
319 Ga. App. 294 (Ga. App., 2012) ...................... 10

Murphy v. Murphy,
263 Ga. 280 (1993) ......................................... 7, 18

NAACP v Alabama,
357 U.S. 449 (1958) ................................. 7, 10, 18

NAACP v Button,
371 U.S. 415 (1963) ........................................... 18

Shuttlesworth v. City of Birmingham,
382 U.S. 87 (1965) ........................................... 7, 18

Trend Development Corporation v. Douglas
County, 259 Ga. 425 (1989)................................. 9
Tricoli v. Watts,
336 Ga. App. 837 (2016) ...................................... 5

United States v. Ammidown,
497 F.2d 615 (D.C. Cir. 1973) ............................. 7

United States v. Woody,
2 F.2d 262 (D. Mont. 1924) ................................. 7

ix
TABLE OF AUTHORITIES – Continued
Page

Williams v. Fuller,
244 Ga. 846, 262 S.E.2d 135 (1979) ................... 7

Wright v. Georgia,
373 U.S. 284 (1963) ................................. 7, 16, 17
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. XIV, § 1 ................................. 2, 18
U.S. Const., amend. I ............................................ 2, 18
STATUTES
28 U.S.C. § 1257(a) ..................................................... 1
OCGA 16-14-6 ....................................................... 6, 14
OCGA 45-15-18 ..................................................... 6, 16
OCGA 5-6-34 ......................................................... 9, 10
OCGA 9-11-60 ............................................... 3, 5, 9, 10

1

OPINIONS BELOW
The Superior Court of Fulton County Georgia
entered an order on November 14, 2016, barring
Plaintiffs-Petitioners claims and dismissing the complaint on the basis of sovereign immunity. (App.10a).
The Court of Appeals of Georgia affirmed this dismissal
on July 26, 2019. (App.15a). The Supreme Court of
Georgia denied a petition for certiorari on March 26,
2020. (App.3a)

JURISDICTION
Timely motions to vacate and for reconsideration
were denied by the Supreme Court of Georgia on July
15, 2020. (App.1a, 2a) This Court granted a 60-day
extension of the time to file a petition for writ of certiorari through December 12, 2020. This Court has
jurisdiction 28 U.S.C. § 1257(a).

2

CONSTITUTIONAL PROVISIONS
U.S. Const., amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a redress of grievances.
U.S. Const. amend. XIV, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws.

STATEMENT OF THE CASE
In the lead-up to the instant KSU case, a financial scandal erupted in 2012 at another USG institution,
Georgia Perimeter College (GPC). Though it is admitted
by Respondents that two set of books were kept at
GPC and financial reports to the GPC administration
were wildly inaccurate, GPC President Anthony Tricoli
was scapegoated and terminated. Tricoli sued the

3
USG Board of Regents for knowingly aiding and concealing financial fraud under the RICO statute, a suit
that was dismissed on the purported grounds that
state officials enjoy sovereign immunity protection to
commit RICO felonies, notwithstanding the contrary
language of the Georgia RICO Act according to the
precedents of the Georgia Supreme Court. Caldwell v.
State, 253 Ga. 400, 402 (1984) (Georgia RICO statute
expressly authorizes civil action against state officials,
rejecting the argument of Georgia Labor Commissioner
Sam Caldwell that, as a state official, he was not subject to a civil RICO action).
This Court denied certiorari in that case, but in the
course of preparing his petition, Tricoli discovered
new evidence of fraud by USG officials affecting the
judgment below, as well as the due process violations
from Georgia’s evasion of its own RICO statute and
controlling Georgia Supreme Court precedent. Tricoli
also discovered direct evidence of Georgia Attorney
General Sam Olens blocking a hearing that was
required when Tricoli was terminated and making
knowing misrepresentations about USG financial
records to obstruct a criminal investigation of the USG.
Ultimately, Tricoli uncovered a scheme of USG fraud
on the federal government totaling billions of dollars
annually in federal aid.
Based on the new evidence of fraud and due
process violations, Tricoli filed a motion to set aside
the judgment against him pursuant to OCGA 9-11-60
on April 1, 2019. The State of Georgia to this day has
never responded. It is alleged in the Tricoli motion
that this massive fraud scheme in the USG was the
impetus behind Attorney General Olens obstructing
a hearing required upon Tricoli’s firing, as well as

4
criminal investigation of the USG for millions of
dollars that remain unaccounted-for to this day.
The instant KSU case was originally filed in
October 2016 to bar the USG from appointing former
Georgia Attorney General Sam Olens to a $500,000 a
year USG position after Olens obstructed the hearings
and criminal investigation concerning financial fraud
in the USG, as alleged and documented in the Tricoli
action. The KSU action for injunctive relief alleged a
RICO scheme, including bribery in the USG appointment of Olens after Olens obstructed criminal investigation of the USG-as well as extortion and fraud in
the removal of KSU President Dan Papp, to make
way for Olens.
More than four years later, the State of Georgia,
as represented by the Attorney General who was
appointed to the position when Olens stepped down
to become president of Kennesaw State University
(KSU), still has never answered those allegations. In
fact, Attorney General Chris Carr has never filed a
substantive responsive pleading in the case.1
A hearing on Petitioners’ TRO motion was not
held until after Olens assumed the KSU presidency.
Subpoenaed USG witnesses did not appear at the hearing, based on the attorney General’s misrepresentations, contradicted by the evidence, that the subpoenas
had been hidden inside the service papers. The Attor1 The only pleadings ever filed by the Attorney General were a
notice of appearance and a pleading in support of the Georgia
Court of Appeals refusal to review the case on the procedural
pretext that a one-sentence order with no explanation denying
an uncontested motion was res judicata of all possible issues on
appeal.

5
ney General did produce, however, an order the Georgia
Supreme Court entered that very morning before the
court’s normal business hours denying review of the
Court of Appeals order conferring sovereign immunity
on Georgia state officials for RICO felonies, contrary
to controlling Georgia Supreme Court precedents
that are binding on the Court of Appeals.
Despite the State of Georgia’s failure to file a
responsive pleading or produce subpoenaed witnesses,
the trial court entered an order written by the Attorney General, dismissing the case for injunctive relief—
an issue not addressed or decided in Tricoli2—and
including knowing misrepresentations, including false
grounds for the non-appearance of subpoenaed USG
witnesses. 2R386.
Petitioners filed a motion to set aside that judgment based on due process violations, under OCGA
9-11-60(a), and evidence of fraud affecting the judgment, under OCGA 9-11-60(d). 2R393. To this day,
Attorney General Chris Carr has never filed a
responsive pleading
With no response forthcoming from the Attorney
General or the Court, Petitioners filed a Supplement
to the motion detailing new evidence discovered concerning the fraud and extortion in Dr Papp’s removal.
2R513.
Still with no response from the AG or the trial
court, Petitioner’s filed a second supplement, with
additional evidence of fraud, including the after-thefact amendment of USG Board of Regents policies
that had been violated in the ouster of Dr. Papp.
2 Tricoli v. Watts, 336 Ga. App. 837 (2016).

6
Petitioners’ pleading urged the trial court to rule on
the uncontested motion that had now been pending
for months. 2R550. Because all Petitioners’ pleadings
were disappearing in a well of darkness and silence,
the case has been dubbed the Phantom Case at
Kennesaw State.3
Still pushing for a response from the Attorney
General or some action from the trial court, Petitioners filed a renewed motion to set aside the judgment
supported by an affidavit. 2R562. Again, the Attorney General’s 30 days to answer came and went with
no responsive pleading or action by the court.
More than a year later, near the time that Olens
announced he was leaving KSU, the trial court entered
a one-sentence order denying the uncontested motion
to set aside. (App.4a)
Even though Olens was now leaving KSU, all
issues in the action were not resolved, including a
demand for the Governor to use his statutory authority under OCGA 45-15-18 to appoint an independent
investigator to examine the evidence of fraud, bribery,
and extortion. Petitioners were also entitled to costs
and legal fees under the RICO statute. OCGA 16-146(c).

3 A timeline of these seemingly phantom proceedings can be
found at the following link: https://creativeloafing.com/content470581-outlandish-conspiracy-theories-timeline-of-the-phantomcase-at
Documentation of Olens’ evasion of service, with the collusion of
state authorities, can be found at the following link: https://
atlanta.creativeloafing.com/content-418315-Outlandish-ConspiracyTheories-Serving-Sam-Olens

7
A.

The Historical and Legal Context

Over 50 years ago, this Court quashed attempts
by the Georgia executive and judiciary to defy the
laws and Constitutions in defense of the evils of
segregation—by making up their own law as they
went along to fit their pre-ordained outcome adverse
to Civil Rights litigants. Wright v. Georgia, 373 U.S.
284, 292 (1963). The Court declared to Georgia and
any defiant state that followed suit that a state could
not shade its own procedural requirements as a pretext
to prejudice disfavored litigants. NAACP v Alabama,
357 U.S. 449, 456-57 (1958).
Attempts to evade and shapeshift its own law
violated due process and were rejected as based on no
evidence at all. Shuttlesworth v. City of Birmingham,
382 U.S. 87, 93 (1965).
Georgia’s own law is clear that defiance of constitutional due process deprives a court of jurisdiction.
Johnson v. Carrollton, 249 Ga. 173, 175-76 (1982);
Coweta County v. Simmons, 507 SE2d 440, 269 Ga.
694, 695 (1998) (court denying due process lacks jurisdiction). Judgments rendered by courts without jurisdiction are void. Murphy v. Murphy, 263 Ga. 280, 282
(1993); Williams v. Fuller, 244 Ga. 846, 848(2), 262
S.E.2d 135 (1979).
The fundamental legal principles that applied to
segregation in the 1960s also ring true for public
corruption today. Courts cannot re-shape or misconstrue the law to protect their political allies. United
States v. Ammidown, 497 F.2d 615 (D.C. Cir. 1973);
United States v. Woody, 2 F.2d 262 (D. Mont. 1924).
In 2020, the Georgia executive and judicial branches have combined and colluded to bypass all constitu-

8
tional, statutory, and precedential requirements in
defense of corruption in state government—to the
tune of billions in financial fraud, obstruction, extortion,
and bribery committed to conceal it.
B.

The State Appeals Court’s Fly-By Dismissal

This phantom case took a stranger procedural
turn when the appeal was dismissed. It is a wonder
how that happened in case in which the Attorney
General had never responded at any level.
After the one-sentence denial of the uncontested
motion to set aside went up on appeal, the Court of
Appeals granted an extension of time to file Appellants’ Brief. On the afternoon the brief was due, however, as appellants were preparing to file it, the appeals
court entered an order dismissing the appeal, without
so much as waiting for the appeal brief to be filed.
There was of course, no adversarial motion challenging appellants’ right to appeal—of necessity since
the Attorney General had never filed any responsive
pleading whatsoever in the entirely of the case, over
the course of almost four years.
Yet the appeals court, literally out of the blue,
entered an order dismissing the appeal, claiming it
was res judicata.
Not only was it a strange time to enter a res judicata order dismissing the appeal—because the court
had no motion before it and Petitioners’ brief arguing
for reversal of the trial court’s one-sentence order was
still a couple of hours away from being filed. It also
had a flimsy, pretextual basis that is out of step with
Georgia law.

9
Res judicata means all issues have been or should
have been litigated. However, when the trial court
entered its one-sentence order denying Petitioners’
motion to set aside the fraudulent judgment, Petitioners filed a notice of appeal of the denial of their
motion under Rule 60(a) for a judgment void for denial of due process. 2R1. See Johnson v. Carrollton, 249
Ga. 173, 175-76 (1982). Petitioners have a right of direct
appeal of that 60(a) denial under Georgia Law. OCGA
5-6-34.
Petitioners also, out of an abundance of caution,
filed an application for review of the denial of their
Rule 60(d) motion based on new evidence of fraud
affecting the judgment, under Georgia’s discretionary
review statute.
The Georgia Court of Appeals denied that application in a one-sentence order with no explanation.
(App.4a). It is hard to determine what the basis of
that denial would have been since the Attorney General never filed any response to the newly discovered
evidence of fraud Petitioners entered into the record
during a year of trial court proceedings, uncontested
by the Attorney General. The trial court order, moreover, offered no explanation whatsoever, much less a
discussion of what issues, legal theories, are claims
for relief were considered. It certainly cannot be said
that Petitioners failed to raise the directly appealable
issue of due process denial voiding the judgment
under OCGA 9-11-60(a).
Res judicata requires identity of issues decided
on the merits, and does not apply to separate substantive grounds, especially where there is no evidence
they were even considered. Trend Development Corporation v. Douglas County, 259 Ga. 425, 427 (1989)

10
(requiring identity of issues for res judicata). That
requirement for foreclosing Petitioners’ claims cannot
by any stretch of the imagination be established by a
series of one-sentence orders with no explanation.
The supposed grounds for res judicata are, in other
words, pure pretext. It was never litigated whether
the due process violations contested under OCGA 911-60 were identical to the evidence of fraud affecting
the judgment under OCGA 9-11-60(d).
Here, Georgia was once again, as in its anti-Civil
Rights days, clearly circumventing its own settled procedures and precedents. The law in Georgia is not
that Petitioners’ issue on direct appeal would be precluded by denial of a discretionary appeal (with no
explanation or no grounds cited in the order). To the
contrary, Georgia law and procedure, in normal circumstances, would not subject plaintiff to prejudice
in an attempt to protect state officials who had committed felonies, including obstruction and knowing
misrepresentations by the Attorney General. These
issues directly appealable under OCGA 5-6-34 cannot
be blocked in real life. To the contrary, they go forward, carrying all other issues affecting the appeal
with them. Keogh v. Bryson, 319 Ga. App. 294, 297298 (Ga. App., 2012) (all judgments, rulings, or orders
rendered in the case which are raised on appeal and
which may affect the proceedings below shall be
reviewed and determined by the appellate court,
without regard to the appealability of the judgment,
ruling, or order standing alone).
In. this instance, Georgia was clearly breaching
the rule of NAACP v. Alabama, varying its normal
procedures to suit the motives of the RICO conspirators, including the Attorney General managing

11
the litigation, accused of knowing misrepresentation
of state agency finances and obstruction.
Since no motion opposing Petitioners’ appeal was
filed, moreover, issue preclusion was never raised or
argued by any party. However, it is an interesting
question: what could form the basis of the sua sponte
res judicata determination?
C.

Why Did the Appeals Court Panel Meet to Discuss the Case Before the Briefs Were Filed?

The grounds for reaching the res judicata conclusion could not have been anything filed by the
Attorney General, who had never filed a responsive
pleading of any kind, including to the motion for an
extension of time to file the appeal brief. It was not
the order of the trial court that formed the basis of
this sue sponte order of res judicata. It was onesentence long, discussed no issue, and cited no facts
or authority.
The pre-emptive rejection could not have been
prompted by anything in Appellants’ Brief, which
would not be filed for another hour. So the appeals
court could not have seen the basis of the appeal to
determine it had already been litigated.
It certainly smacks of maximum harassment
since the appeals court allowed Appellants to work on
their brief for weeks and then dismissed the appeal
at the last second before the brief was filed.
What prompted this Deus Ex Machina that saved
the Attorney General from having to respond to
allegations, law, admitted facts, and evidence of fraud,
extortion, and bribery for the very first time after
three years of silence?

12
Why was there some proactive investigation of
the docket in the instant case before a brief was filed,
on the very day it was scheduled? Was there some ex
parte communication?
The only clue as to how this case would even come
to the appeals panel decision raises questions of ex
parte communications or ethical violations. One judge
on the panel, Ken Hodges, had been previously consulted, as a private attorney, by Petitioners’ counsel
about joining in this series of related RICO cases
against the USG and Attorney General. In this capacity, Judge Hodges had received work product and
facts to review about the cases—outside the record
on appeal in this case.
Moreover, Judge Hodges had been approached by
undersigned counsel when counsel was threatened
with sanctions for persisting in the argument, in the
related Tricoli case, that state officials did not enjoy
sovereign immunity protection for RICO felonies. At
the time, Judge Hodges was President of the Georgia
Bar Association. In that capacity, he received a
memo he requested on the facts of the cases and the
legal issues, and the threat of sanctions on undersigned counsel for persisting in arguing that Georgia
state officials did not enjoy sovereign immunity for
crimes under the Georgia Constitution, The Georgia
RICO Act, and Georgia Supreme Court precedents
such as Caldwell.
One more clue is that in three related RICO
cases brought against the Attorney General and USG,
the courts resorted to attempts to dismiss the appeals—
as opposed to dismissing the cases. The attempt to
attack the appeals themselves, on a procedural basis
unrelated to the merits of the cases, allowed the USG

13
and Attorney General—once again—to evade judicial
attention to the underlying crimes.
D.

RICO Injunction Ruse

Why does the Attorney General not want to file
a responsive pleading in this case, to address the
facts of bribery and extortion, or to argue the controlling law? The answer is simple. The allegations
are true, and can be taken as admitted by the State’s
failure to respond. and the Attorney General knows
the dismissal of the instant KSU case is based on a
knowing misrepresentation of the law. By their
silence, the Georgia executive and judiciary are dissembling to avoid making any further knowing misrepresentation of law before the courts.
That is especially true when it comes to the law
governing a demand for an injunction under the
Georgia RICO Act. Nowhere in the RICO statute is
the express authorization of relief against the state,
satisfying the requirement for waiver of sovereign
immunity, as clear as it is with injunctive relief. As
the Georgia Supreme Court established, in Caldwell,
in 1984:
OCGA 16-14-3 (3) “Enterprise” means any
person, sole proprietorship, partnership,
corporation, business trust, union chartered
under the laws of this state, or other legal
entity; or any unchartered union, association, or group of individuals associated in
fact although not a legal entity; and it
includes illicit as well as licit enterprises
and governmental as well as other entities.

14
Therefore, any time the word enterprise appears,
the phrase governmental entity may be substituted.
Caldwell at 402. The result is clear if that is applied to
the RICO statute’s authorization for injunctive relief.
OCGA 16-14-6(a) Any superior court may,
after making due provisions for the rights of
innocent persons, enjoin violations of Code
Section 16-14-4 by issuing appropriate orders
and judgments including, but not limited to:
(1) Ordering any defendant to divest himself of any interest in any enterprise, real
property, or personal property; (2) Imposing
reasonable restrictions upon the future
activities or investments of any defendant
including, but not limited to, prohibiting
any defendant from engaging in the same
type of endeavor as the enterprise in which
he was engaged in violation of Code Section
16-14-4; (3) Ordering the dissolution or
reorganization of any enterprise; (4) Ordering
the suspension or revocation of any license,
permit, or prior approval granted to any
enterprise by any agency of the state;
...
(b) Any aggrieved person or the state may
institute a proceeding under subsection (a)
of this Code section. In such proceeding,
relief shall be granted in conformity with
the principles that govern the granting of
injunctive relief from threatened loss or
damage in other civil cases, provided that
no showing of special or irreparable damage
to the person shall have to be made. Upon

15
the execution of proper bond against damages
for an injunction improvidently granted and
a showing of immediate danger of significant
loss or damage, a temporary restraining order
and a preliminary injunction may be issued
in any such action before a final determination on the merits.
That exactly describes the relief Petitioners sought
in voiding the USG appointment. The Attorney General
never responded to this clear authority. The Georgia
courts never addressed it at any level.
E.

Conflicted Justices Participated

After Georgia Supreme Court Justices participated
in rulings against the Petitioner in the Tricoli case—
including Georgia Supreme Court Justices who worked
in the Georgia Attorney General’s office on the case,
including one who signed the notice of appearance
before this Court-a motion to recuse resulted in the
disqualification of a majority of the Justices in that
case.
Those Justices in the related Tricoli case were only
able to participate in denying review in this instant
KSU case by refusing to grant either a motion to consolidate it with the related case or to vacate the denial of certiorari in this case based on the participation
of disqualified Justices.
Conflicted justices denied review of the most
flagrant violations of due process in aid of state government corruption of political allies—including the
Governor who evaded the state law requirement for
Georgia voters to elect Justices—in order to appoint
the compromised Justices.

16
F.

Governor Failed to Appoint Independent
Investigator

The same Governors who appointed the Georgia
Supreme Court Justices who have three times refused
to review the related Tricoli and KSU cases, have
also failed to respond to repeated demands under
OCGA 45-15-18 to order an independent investigation.
Now, between them, they have ignored 13 requests
to appoint an independent investigator to examine
the evidence of financial fraud, bribery, extortion,
knowing felony misrepresentations, and obstruction
by the USG and Attorney General. It is clear the
Attorney General cannot investigate claims of his own
wrongdoing. No action has been taken to address
this issue, which is why it falls to the Governor’s
authority to appoint an independent investigator. This
is one of the many issues to which the courts and respondents have failed to respond in the four-year
course of this litigation.

REASONS FOR GRANTING THE PETITION
Whatever springs the State may set for
those who are endeavoring to assert rights
that the State confers, the assertion of Federal rights . . . is not to be defeated under
the name of local practice.

Wright v. Georgia, 373 U.S. 284 at 289.
In the sense Chief Justice Warren used the term,
a springe is a pretextual trap, one with no substantive
weight, justification, or authority, but one meant to
snare the rule of law itself. Id.

17
The USG’s illegal appointment of Olens served
to further conceal evidence and obstruct investigation of criminal activity in the University System.
That included, inter alia, a multi-billion-dollar scheme
to defraud the federal government and the destruction
of evidence of federal election interference at the
Georgia Election Center at KSU.
Under the totality of the circumstances, none of
the stonewalling, evasions, and pretext support the
extreme result in this case, for a complaint and a
motion to set aside to be tossed out without the
slightest attention to the facts, evidence, or supporting
law. This is, in fact, a whole new level of denial of
due process that goes even beyond what this Court
struck down in Wright v. Georgia. In that case, the
State of Georgia did not feel like letting black kids
play basketball in a city park. The consequences of
the total and unassailable unaccountability are much
greater here—where the state attorney general was
rewarded by the USG for obstructing a criminal investigation of billions of dollars in fraud on the federal
government.4
Both this Court and the Georgia courts themselves
have held repeatedly that a court flagrantly denying
due process—by way of the silent treatment in the
instant KSU action—are acting without jurisdiction.
Wright v. Georgia, 373 U.S. 284, 292 (1963); Reich v
Collins, 513 U.S. 106, (1994); Bouie v. City of Columbia,
4 The financial fraud alleged will be recounted in much more
detail in the forthcoming petition from the denial of the motion
to set aside—by similar methods of non-response by the Attorney General and conflicts and evasion by the courts—in the
case of Tricoli v. Watts.

18
378 U.S. 347, 354 (1964); NAACP v. Alabama, 357 U.S.
449, 456-57 (1958); Shuttlesworth v. City of Birmingham, 382 U.S. 87 at 93 (state evading controlling law
violates constitutional due process under the Fourteenth Amendment); Johnson v. Carrollton; Murphy
v. Murphy; Coweta County v. Simmons (court denying
due process lacks jurisdiction).
That is reason enough to summarily set aside the
springe the State of Georgia presumed to set for law
and justice.
Now more than ever, Georgians, and Americans,
need to have confidence in their judicial institutions.
Judicial institutions need to act with integrity,
authority, and jurisdiction—not make up the law as
in Wright v. Georgia. This Court needs to take seriously
its responsibility to ensure that fundamental constitutional norms and requirements of due process of
law are observed.
It is not just judicial institutions that have failed
in this case, but also the Office of the Attorney General and Governor. In their collusion, there has been
a fundamental failure of constitutional separation of
powers. Even the Georgia Bar Association and SACS
accreditation agency have
Rampant fraud, extortion, bribery, and obstruction cannot be the model through which we rebuild
public confidence. We need accountability, not sovereign impunity.
Denying access to the courts on a pretextual basis
violates the First Amendment right to petition courts
for redress of grievances. NAACP v Button, 371 U.S.
415, 438 (1963).

19
That is why this case should be sent back with
direction to follow the laws and Constitution.

CONCLUSION
This is a stranger than fiction phantom case in
which the Attorney General, after making a notice of
appearance in November 2016, has never since filed
a responsive pleading on behalf of the state, has
never answered allegations of a criminal enterprise
in the USG, fraud in the proceedings below affecting
the judgment, or the massive due process violations
in a star chamber proceeding, in which Respondents
and the courts remain silent while denying relief
afforded by the laws of Georgia. That is, the State of
Georgia would afford this relief to any litigant who was
not challenging State of Georgia officials for abusing
their public offices to commit RICO felonies that harm
the public.
No greater breakdown of the judicial system is
imaginable than the due process violations that occurred in this case. Faced with evidence of financial
fraud on the federal government by the USG, Attorney
General obstruction to bar required hearings and
criminal investigation via knowing misrepresentations,
and a quid pro quo in which the USG appointed
former Attorney General Sam Olens as sole candidate
considered, the justice system simply stonewalled the
KSU faculty, staff, students, and alumni who opposed
this illegal appointment that violated the USG Board
of Regents own rules on presidential selection.

20
Flagrant violations of due process render the court
proceedings below a nullity. This Court must void
them to ensure the proper administration of justice
in every state of the Union.
Respectfully submitted,
STEPHEN F. HUMPHREYS

COUNSEL OF RECORD

STEPHEN F. HUMPHREYS, P.C.
P.O. BOX 192

ATHENS, GA 30603
(706) 207-6982
ATHENSLAW@GMAIL.COM

COUNSEL FOR PETITIONERS
DECEMBER 13, 2020

